No. 20-5094

IN THE

SUPREME COURT OF THE UNITED STATES

ANITA LAUX — [PETITIONER]
V.

MENTOR WORLDWIDE, LLC [RESPONDENT]

PROOF OF SERVICE

|, Anita Laux, do swear or declare that on this date, October 26, 2020, as required
by Supreme Court Rule 29, | have served the PETITION FOR REHEARING on each
party to the above proceeding or that party's counsel, to be served by depositing
an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid for delivery.

The names and addresses of those served are as follows:
Dustin Rawlin, Tucker Ellis, LLP, 950 Main Ave., Suite 1100, Cleveland, OH 44113
(Counsel for Respondent).

 

| declare under penalty of perjury that the foregoing is true and correct.

Executed on October 29, 2020
Aovut Lan 10/24 bro

Anita Laux, Petitioner, Pro Se
P.O. Box 7212, Westlake, CA 91359

 
